U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Devon Mitchell v. United States of America,
S.Ct. No. 20-6622

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
15, 2020, and placed on the docket on December 15, 2020. The government’s response is due on
January 14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6622
MITCHELL, DEVON
USA

MICHAEL J. BRESNEHAN
LAW OFFICES OF MICHAEL J. BRESNEHAN,
P.C.
1761 EAST MCNAIR DRIVE
SUITE 101
TEMPE, AZ 85283-5002
480-345-7032
MBRESNEHAN@HOTMAIL.COM

